PHIL WEISER
Attorney General

RALPH L. CARR
COLORADO JUDICIAL CENTER
1300 Broadway, 10th Floor
Denver, Colorado 80203
Phone (720) 508-6000

NATALIE HANLON LEH
Chief Deputy Attorney General
ERIC R. OLSON
Solicitor General
ERIC T. MEYER
Chief Operating Officer
.

STATE OF COLORADO
DEPARTMENT OF LAW

Office of the Attorney General

February 18, 2020
Scott Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
RE:

Colorado Department of State v. Baca, et al., No. 19-518; Chiafalo, et al. v.
Washington, No. 19-465

Dear Mr. Harris:
Under Supreme Court Rules 26.9 and 30.4, Petitioner in No. 19-518, the
Colorado Department of State, respectfully moves to extend the time for filing the
Joint Appendix in No. 19-518 to April 1, 2020.
Case No. 19-518 has been consolidated with No. 19-465. Petitioners in No. 19465 and Respondents in 19-518 (“the electors”) are represented by the same counsel
and will file their principal brief(s) on or before March 2, 2020, consistent with the
Court’s January 27, 2020, order. In turn, the Colorado Department of State and the
State of Washington, Respondent in No. 19-465, will file their briefs on or before
April 1, 2020.
Counsel to the parties in the consolidated cases have conferred and agree
that the Colorado Department of State should prepare the Joint Appendix in No.
19-518, and that it should be filed contemporaneously with the Department’s brief
on April 1, 2020.
Although situated as a respondent for purposes of the briefing schedule, the
Colorado Department of State remains the petitioner in No. 19-518, and thus is
responsible for filing the Joint Appendix in that case under Supreme Court Rule
26.1. Further, the Colorado Department of State is the only party in the
consolidated cases that wishes to designate material to appear in a Joint Appendix.
I understand that the parties in No. 19-465 will move to dispense with printing the
Joint Appendix for that case. Extending the time for the Colorado Department of
State to file the Joint Appendix in No. 19-518 will allow the Department’s counsel to
first review the electors’ principal brief before finalizing the contents of the Joint
Appendix. Affording the Colorado Department of State this additional time to file

Page 2
the Joint Appendix will ensure that only the most relevant portions of the record
are included.
Accordingly, the Colorado Department of State requests that the deadline for
filing the Joint Appendix in No. 19-518 be extended to April 1, 2020.
Sincerely,
FOR THE ATTORNEY GENERAL
/s/ Eric R. Olson
ERIC R. OLSON
Solicitor General
(720) 508-6548
Eric.Olson@coag.gov
Counsel of Record for Petitioner,
Colorado Department of State
cc: L. Lawrence Lessig (counsel for the electors)
12 Eliot St.
Cambridge, MA 02138

